=5247
IN THE SUPREME COURT OF THE UNITED STATES

AVERN liEE BURNSIDE,
Petitioner,
v.
RANDEE REWERTS, WARDEN,
Respondent.
SuPrem ««•*,, ua

is 2020
office dp

On Petition for Writ of Certiorari to the
United States Court of Appeals for the Sixth Circuit

PETITION FOR WRIT OF CERTIORARI

Avern liee Burnside # 394665
In Propria Persona
Carson City Correctional Facility
10274 Boyer Road
Carson City, Michigan 4BB11

lt!FCLERK

QUESTIONS PRESENTED
ARGUMENT I
DID THE UNITED STATES DISTRICT COURT FOR THE EASTERN
DISTRICT OF MICHIGAN AND THE UNITED STATES COURT OF APPEAliS
FOR THE SIXTH CIRCUIT ERRONEOUSLY DENIED MR. BURNSIDE'S
REQUEST FOR A CERTIFICATE OF APPEALABILITY IN THIS HABEAS
CORPUS CASE WHERE JURISTS OF REASON GOULD CLEARLY DEBATE
WHETHER MR. BURNSIDE'S DUE PROCESS RIGHTS WERE VIOLATED AND
HE IS ENTITLED TO A NEW TRIAL BASED ON NEWLY DISCOVERED
EVIDENCE, WHERE THE PROSECUTOR KNOWINGLY USED PERJURED
TESTIMONY FROM LEAH WATSON, WHOSE TESTIMONY WAS BASED ON
THREATS AND INTIMIDATION; AND THAT JUDGE FARAH'S FACTUAL
FINDINGS ARE NOT ENTITLED TO A PRESUMPTION OF CORRECTNESS?

TABLE

of contents

QUESTIONS PRESENTED

i

TABLE OF CONTENTS

ii

TABLE OF AUTHORITIES

iv

ORDERS BELOW

.1

STATEMENT OF JURISDICTION

2

STATUTORY PROVISION INVOLVED..,.

2

STATEMENT OF THE CASE

3

REASONS FOR GRANTING THE WRIT

.'.9

ARGUMENT I
THE UNITED STATES DISTRICT COURT FOR THE EASTERN DISTRICT OF
MICHIGAN AND THE UNITED STATES COURT OF APPEALS FOR THE
SIXTH CIRCUIT ERRONEOUSLY DENIED MR. BURNSIDE'S REQUEST FOR
A CERTIFICATE OF APPEALABILITY IN THIS HABEAS CORPUS CASE
WHERE JURISTS OF REASON COULD CLEARLY DEBATE WHETHER MR.
BURNSIDE'S DUE PROCESS RIGHTS WERE VIOLATED AND HE IS
ENTITLED TO A NEW TRIAL BASED ON NEWLY DISCOVERED EVIDENCE,
WHERE THE PROSECUTOR KNOWINGLY USED PERJURED TESTIMONY FROM

Leah watson, whose testimony was based on threats and
INTIMIDATION; AND THAT JUDGE FARAH'S FACTUAL FINDINGS ARE
NOT ENTITLED TO A PRESUMPTION OF CORRECTNESS.
CONCLUSION

21

APPENDIX, VOL I:
APPENDIX A: Sixth Circuit's Order Denying Certificate of Appellability
APPENDIX B: District Court's Opinion and Order Denying Petition for a Writ of
Habeas Corpus
APPENDIX C: Michigan Supreme Court Order Denying Leave to Appeal on Collateral
Reviau of State Court Judgment
APPENDIX D: Michigan Court of Appeals
Collateral Review of State Court Judgment

Order Denying Leave

to

Appeal

on

APPENDIX E: Geneses County Circuit Court Order Denying Collateral Postconviction
Relief from Sate Court Judgment
APPENDIX F: Michigan Supreme Court Order Denying Leave to Appeal on Direct

ii

Appeal of State Court Judgment
APPENDIX G: Michigan Court of Appeals Opinion Affirming State Court Judgment of
Conviction and Sentence
APPENDIX H: District Court's Judgment Dismissing Habeas Petition
APPENDIX I: District Court's Order Denying Petitioner's Motion for Relief from
Judgment
APPENDIX,VOL II:
APPENDIX J: Excerpts from Pretrial Transcript, 05/17/10 (Defendant's motion to
exclude jail taped conversations)
APPENDIX K: Excerpts Pretrial Transcripts, 07/12/11 (Mr. Burnside made a matter
of record regarding the inaccuracies in the alleged jailhouse telephone
transcripts)
APPENDIX L: Excerpts from Pretrial Transcript, 02/15/12
APPENDIX M: Jury Trial Transcript Cover Sheet, 02/22/12 (before the Honorable
Mark Latchana, District Judge, sitting for Joseph J. Farah, Circuit Judge)
APPENDIX M: Jury Trial Transcript with Generic Caver Sheet, 02/23/12 (before the
the Honorable Mark Latchana, District Judge, sitting for Joseph J. Farah,
Circuit Judge)
APPENDIX 0: Jury Trial Transcript with Cover Sheet, 02/24/12 (before the
Honorable Hark Latchana, District JudgE, sitting for Joseph J. Farah, Circuit)
APPENDIX P: Sentence Transcript Cover Sheet, Q2/2B/12 (before the Honorable Mark
Latchana, District Judge, sitting for Joseph J. Farah, Circuit Judge)
APPENDIX Q: Leah watson's Affidavit of Case Witness, 4/8/10 (invoking the right
to not participate in...any future trials)
APPENDIX R: Petition to Hold Watson to Bail, 1/20/11 (Watson was required to
furnish bail or in default thereof be committed to jail pending the trial in
this case)
APPENDIX S:
testimony)

Leah

Watson's

Sworn

Affidavit,

iii

5/13/14

(recanting

her

trial

TABliE OF AUTHORITIES
Barefoot v. Estelle, 463 U.S. 630, 103 S.Ct. 3383, 77 L.Ed.2d 1090

9

Barker v. Vuklns, 199 F.3d 867, 874-75 (6th Cir. 1999)........................

20

Burks v. Egeler. 512 F.2d 221, 225 (6th Cir. 1975)

14

Cabana v. Bullock. 479 U.S. 376, 388 n. 5 (1986)

17

Coe v. Bell. 161 F.3d 320, 343 (6th Cir. 1998)..,

19

Curran v. Deleuisre, 259 F.2b 707, 712-13 (3d Cir. 1959)

13

Fernandez v. Capra. 916 F.3d 215, 229-30 (2d Cir. 2019)

18

Giglio v. United States. 405 U.S. 150, 153-54 (1972)

...11, 12, 14, 15

Lennox v. Evans, 87 F.3d 431 (10th Cir. 1996).......

10

Leuis v. Jeffers, 497 U.S. 764, 801 (1990)............ .............................

20

Limone v, Condon. 372 F.3d 39, 47 (1st Cir. 1997)...............................

13

Lyons v. Ohio Adult Parole Authority. 105 F.3d 1063 (6th Cir. 1997)

.. .10

McGhee v. Vukins. 229 F.3d 506, 513 (6th Cir. 200D).......................

17

Mendiola v. Schomlnq, 224 F.3d 589, 597-98 £ n. 4 (7th Cir. 2000)

17

Miller-El v. Cockrell

537 U.S. 322, 336, 340, 123 S.Ct. 1029, 154 L.Ed. 2d 931

(2003)

...10, 17

Mooney v. Holohan. 294 U.S. at 112-13 (1935).

12, 13, 14

Napue v. Illions. 360 U.S. 264, 269-70 (1959)

11

Norton v. Spencer, 351 F.3d 1

18

7 (1st Cir. 2003)

Five v. Kansas, 317 U.S. 213, 214-16 (1942)......................

12, 14

Reyes v. Keane, 90 F.3d 676 (2d Cir. 1996)........................

10

Ramonez v, Berghuis. 490 F.3d 482, 490 (6th Cir. 2007)

17

Slack v. McDaniel, 529 U.S. 473, 483-484, 120 S.Ct. 1595 L.Ed. 2d 542 (2000)..10
Smith v. Mississippi Dep't of Corr., 153 Fed. fippx. 328, 328-29, 2005 U.S. App.
LEXIS 24403, at 2-3 (5th Cir. Nov. 10, 2005)..
United States v. flqurs. 427 U.S. 97, 112 (1976)

iv

20

..15

United States v. Baglay, 473 U.S. 667, 675-80 (1585).,

.15

United States v■ Hohn, 524 U.5. 236 (1998)....................

2

U.S. v. Pardomo. 929 F.2d 967, 971-72 (3d Cir. 1991)

v.

in, 623 F.3d 1258, 1266 (9th Cir. 2010)

14

..20

Statutes:
28 U.S.C. § 1254 (1)

,.2

28 U.S.C. § 2253 (c)

3

28 U.S.C. § 2253 (c)(2)

9, 10

28 U.S.C. § 2254

7

20 U.S.C. § 2254 (d)(1)(2)

12

28 U.S.C. § 2254 (e)(1)

16, 18

Anti-Terrorism and Effective Death Penalty Act of 1996 (AEDDA), Pub. L. No. 104132, 110 Sta 1214

9

Other Authorities:

Moore's Federal Practice (2d Ed), § 220.03

v

21

ORDERS BEtiQlii

The United States Court of Appeals for the Sixth Circuit denied Mr, Burnside
a certificate of appealability in an unpublished Order dated April 29, 2020.
This Order is reproduced in the appendix to this petition as Appendix A and is
cited at Burnside v, Rewerts, 2020 U.S. App. LEXIS 13803 (April 29, 2020).
United States District Court for the Eastern District of Michigan denied Mr.
Burnside's petition for writ of habeas corpus in an unpublished opinion and
order on August 28, 2019. Tha court went on to deny Mr. Burnside a certificate
of appealability as to all issues in the petition in the same opinion and order.
This Opinion and Order is reproduced in the appendix to this petition as
Appendix B and is cited at Burnside v, Campbell, 2019 U.S. Dist LEXIS 14628B
(E.D. Mich., Aug. 2B, 2019).
The Michigan Supreme Court denied Mr. Burnside leave to appeal on collateral
review of his state court judgment in an Order dated Dune 28, 2016. This Order
is reproduced in the appendix to this petition as Appendix C and is cited at
People v. Burnside, 2016 Mich. LEXIS 1236 (Dune 28, 2016).
The Michigan Court of Appeals denied Mr. Burnside leave to appeal on
collateral review of his state court judgment in an unpublished Order dated
September 15, 2015. This Order is reproduced in the appendix to this petition as
Appendix D and is cited at People v. Burnside, 2015 Mich. App. LiEXIS 2636 (Sep.
15, 2015).
The

Genesee

County

Circuit

Court

denied

Mr.

Burnside

collateral

postconviction relief from his state court judgment in an unpublished Opinion
and Order dated Duly 14, 2015. This Opinion and Order is reproduced in an
appendix to this as Appendix E.
The Michigan Supreme Court denied Mr. Burnside leave to appeal on direct

1

appeal of his stats court judgment in an Order dated October 28, 2014. This
Order is reproduced in the appendix to this petition as Appendix E and is cited
at People v. Burnside. 2014 Mich. LEXIS 2053 (Oct. 28, 2014).
The Michigan Court of Appeals affirmed Mr.

Burnside's convictions and

sentences in an appeal of right from his state court judgment in an unpublished
Opinion dated April 17, 2014. This Opinion is reproduced in the appendix to this
petition as Appendix G and is cited at People v» Burnside. No. 309807, 2014 Mich
App. LEXIS 723 (Mich. Ct. App. Apr. 17, 2014).
STATEMENT OF-JURISDICTION
The final judgment dismissing Mr. Burnside's habeas corpus petition in this
case was entered by the United States District Court for the Eastern District of
Michigan on August 28, 2019. The district court's judgment is reproduced in the
appendix to this petition as Appendix H. On the same date, the district court
denied a certificate of appealability with respect to all of the grounds raised
in the habeas petition in the same opinion and order that it issued denying the
writ. See Appendix B. The Petitioner filed a timely notice of appeal in the
district court. The United States Court of Appeals for the Sixth Circuit
subsequently issued an order denying a certificate of appealability on April 29,
2020. See Appendix A. This petition was timely filed within ninety days after
that judgment.
The jurisdiction of this Court is invoked pursuant to 28 U.S.C. § 1254(1);
United States v. Hahn, 524 U.S. 236 (1998).

STATUTORY PROVISIONS INUOlll/ED

28 U.S.C. § 1254(1):
Cases in the courts of appeals may be reviewed by the Supreme Court by • • • writ of
certiorari granted upon the petition of any party to any civil or criminal case,
before or after rendition of judgment or decree.

2

28 U.S.C. § 2253(c):
(1) Unless s circuit justice or judge issues a certificate of appealability,
an appeal may not be taken to the court of appeals from---(A) the final order in a habeas corpus proceeding in which the
detention complained of arises out of process issued by a Stats court;
or (B) the final order in a proceeding under section 2255.
(2) A certificate of appealability may issue under paragraph (1) only if the
applicant has made a substantial showing of the denial of a constitutional
right.
(3) The certificate of appealability under paragraph (1) shall indicate
which specific issue or issues satisfy the showing required by paragraph
(2).
STATEMENT OF THE CASE

Complaxntant Antwyne Ledesma was driving west on Court Street in Flint on
Duly 30, 2009 around 2:30 in the afternoon. As she approached Ann Arbor Street,
close to the White Tavern, she noticed a Black SUV swerving. She was talking to
her father on the phone at the time, he told her "to get close enough to get the
license plate number." (TT, 2-23-12 pg. 14-15 Appendix N). Ms. Ledesma was able
to get the plate number, EXD8D88, and gave it to her dad. (TT, 2-23-12 pg. 1516, 21 Appendix N).
The Black SUV was traveling in the same direction as Ms. Ledesma. At Miller
Road, the SUV moved to the left turn lane. The windows were down and Ms. Ledesma
could see a black male assaulting a white female. Ms.Ledesma yelled

"Leave her

alone; you're not fuckin' right." After the light turned green, Ms. Ledesma
proceeded down Court Street. She testified that I, "Noticed in my rear-view
mirror that the SUV had got out of the turning lane and got behind me." (TT, 223-12 pg. 16-17 Appendix N).
She picked up her pace, then the SUV pulled along the side of her car. (TT,
2-23-12 pg. 17-18 Appendix N). Ms Ledesma saw the man's hand going up, extended
in her

direction,

and heard

the first

accelerator, and then heard another shot."

3

shot.

She ducked down,

"hit

the

However, she did not see a gun or a muzzle flash. (IT, 2-23-12 pg. 1B, 34
Appendix N). The Black SUV than turned left onto Durand Street. (TT, 2-23-12 pg.
19 Appendix N). Ms. tjedesma did not see the man's face and could not identify
him or "the white female that was sitting in the passenger's side." (TT, 2-2312 pg. 21-22, 35-36 Appendix N). Both Ms. Ledesma and her father phoned 911
immediately to report the incident. A bullet hole was later discovered in the
rear quarter panel of her car. (TT, 2-23-12 pg. 38 Appendix N).
Leah Watson testified that Avern Burnside had been her boyfriend for six
years. (TT, 2-23-12 pg. 48 Appendix N). On the afternoon of Duly 30, 2009, the
couple had gone to a restaurant on Court Street. (TT, 2-23-12 pg. 49 Appendix
M). When they left, Mr. Burnside was driving his Tahoe truck that was titled to
Ms. Watson. They were yelling and screaming back and forth and he was grabbing
her hair, shoving her head down. (TT, 2-23-12 pg. 49-51 Appendix N).
Ms. Watson testified that a woman pulled up next to them while they were in
"the turn lane to go onto Miller Road." Mr. Burnside got bshind the car, than
met up with it. She said "he put his arm over me • * • the gun was right in front of
my face and Mr. Burnside shot at her." (TT, 2-23-12 pg. 52-53 Appendix N). Ms.
Watson said after Mr. Burnside drove home, he left walking, (TT, 2-23-12 pg.
Appendix N).
Ms. Watson later responded to a notice left by the Flint Police Department.
She claimed she did not tell Sergeant Brown "the truth about what happened that
day, right away" because she was scared of her "boyfriend at the time." However,
she later told him the truth. (TT, 2-23-12 pg. 56 Appendix N). Ms. Watson
testified for the prosecution at the preliminary examination held in this case.
However, afterwards she sent Budge McDoud a lengthy, notarized letter admitting
that she had lied on the witness stand. (TT, 2-23-12 pg. 66-73 Appendix N).
At a pre-trial hearing held before Budge Farah on February 15, 2012, the

4

parties discussed the prosecution's notice of the intent to present evidence of
an alleged prior act of Mr. Burnside under MRE 404(b). The prosecutor asserted
the proposed evidence, which claimed that in 2005 Mr. Burnside argued with tJeah
Watson and at that time fired a gunshot at her as she was driving away in her
vehicle, was admissible under the evidence rule to prove Mr. Burnside's identity
as the shooter in the case at bar, his system of doing an act, and his intent in
the present case. (PT, 2-15-12 pg. 3-6 Appendix l!). The prosecutor acknowledged
that Ms. Watson had recanted her allegations in this case, and Mr. Burnside was
never charged with any domestic violence charges against Ms. Watson in the
present case. (PT, 2-15-12 pg. 6 Appendix li). Budge Farah concluded the evidence
of the alleged act from 2005 was admissible in the case at bar. (PT, 2-15-12 pg.
1B-23 Appendix l!).
When Ms. Watson testified as a prosecution witness, she did relate the
allegation that Mr. Burnside fired a weapon at her car as she was driving away
from him following an argument between the two of them. (TT, 2-23-12 pg. 123
Appendix N).
The defense filed a motion requesting exclusion of the alleged jailhouse
telephone conversations. The court ruled the tapes were admissible. (PT, 5-1710 pg. 9 Appendix 0). The prosecution was allowed to introduce transcripts of
the alleged jailhouse telephone conversations purported to be Leah Watson and
Avern Burnside. (PT, 2-15-12 pg. 34, 37 Appendix L). Mr. Burnside made a matter
of record

regarding

the

inaccuracies

in

the

alleged

jailhouse

telephone

transcripts: Your Honor, I want to inform the Court the transcripts, they are
not accurate. War can I utilize the alleged incorrectly information related to
who is actually speaking. They are saying words I did not say. (PT, 7-12-11 pe9 Appendix K).
However,the court ruled that the transcripts of the alleged jailhouse

5

telephone conversations would be read after voice identification. (PT, 2-15-12
pg. 34, 37 Appendix L). During direct examination of Leah lifatson, the prosecutor
introduced a snippet of the phone recording from the Genesee County Ceil. Ms.
Watson claimed that she recognized the voices on the recording as hers and Mr.
Burnside's. (TT, 2-23-12 pg. 77-79 Appendix N). Then the prosecutor read the
alleged jailhouse telephone conversations purported to be Leah Watson and Avern
Burnside from the transcripts. (TT, 2-23-12 pg. 77-121 Appendix N).
The jury trial in this case began on February 22, 2012, before the Honorable
Mark Latchana, District Court Budge who was sitting in for Boseph 0. Farah,
Circuit Court Budge.
Mr. Burnside was convicted of assault with intent to murder; carrying a
concealed weapon; felon in possession of a firearm; discharging a weapon from a
vehicle; and possession of a firearm during the commission of a felony following
the jury trial. (TT, 2-24-12 pg. 130 Appendix 0), Mr. Burnside was sentence to
serve 240 months to 480 months with a consecutive 24 months. (ST, 3-28-12 pg.
18-20 Appendix P).

Mr. Burnside appealed the convictions and sentences as a matter of right.
The Michigan Court of Appeals affirmed Mr. Burnside's convictions an April 17,
2014 in Docket No. 309807. See Appendix G; Court of Appeals' Opinion, 04-17-14.
The Michigan Supreme Court subsequently denied leave to appeal on October 28,
2014 in Docket No. 149464. See Appendix F; Michigan Supreme Court Order, 10-2814.
Mr. Burnside subsequently filed a motion for relief from judgment pursuant
to Mich. Ct. R. 6.500 et seq in tha Genesee County Circuit Court.
In Mr. Burnside's Motion for Relief From Budament (ground one)

he submitted

the sworn affidavit of Leah Watson (5-13-14 Appendix S), who was a primary
government witness in Mr. Burnside's trial. In the affidavit, Watson recants her

6

trial testimony, stating that she testified falsely when she implicated Burnside
as being

involved in

the crime.

She explains that she made these false

statements because the police officers threatened to send her to prison for this
crime

and that she was scared of the police officers. She also explains that

Burnside did not shoot at her in 2005. And she states that upon reading the
telephone transcripts, she saw a lot of errors. And that she was not given the
opportunity to confirm if the conversations presented to her were indeed
Burnside and herself. Nonetheless, Oudge Farah denied Mr. Burnside's perjured
testimony claim implying that Watson's affidavit wan not credible and "there was
nothing about which the People were aware that suggests they presented perjured
testimony t • t " See (Oudge Farah's decision pg. 1-2 Appendix E).
Mr. Burnside subsequently filed an application for leave to appeal with the
S'

Michigan Court of Appeals, -which was denied on September 15, 2015 in Docket No.
3284S5. See AppendixMichigan Court of Appeals Order, 06-28-16. Mr. Burnside
.."

'

subsequently filed an application'' for leave to appeal with the Michigan Supreme
v

Court, which was denied on Oune 28, 2016 in Docket No. 152410 (17). See Appendix
C; Michigan Supreme Court Order, 06-2B-16.
On September 14, 2016, Mr. Burnside filed a petition for writ of habeas
corpus in the United States District Court for the Eastern District of Michigan,
which is the subject of the instant petition for certiorari. The district court
had jurisdiction over this habeas proceeding under 23 U.S.C. § 2254. Mr.
Burnside's petition raised the following five grounds for relief:

(1) the

prosecutor knowingly used perjured testimony from Leah Watson; (2) the alleged
phone conversations purported to be between Leah Watson and Avern Burnside were
not sufficiently authenticated and were not trustworthy; (3) the verdict is
against the great weight of the evidence; (4) ineffective assistance of trial
counsel, where he failed to compel the prosecution to hand over the exculpatory

7

phone calls from the Genesee County Gail, and failed to let Burnside hear the
phone recordings;(5) and ineffective assistance of appellate counsel.
After filing his initial petition, fir. Burnside filed an amended petition
for writ of habeas corpus on May 25, 2017, adding five additional grounds, and
on Duly 3, 2018, added one more ground: (6) the trial court erred in allowing
police sergeant to testify about the behavior of domestic violence victims; (7)
the

prosecutor

committed

misconduct

because

her

opening

statement

was

argumentative, she vouched for the credibility of prosecution witness, and
elicited improper opinion testimony; (B) prior bad acts evidence was improperly
admitted;

(9) right to a speedy trial was violated; (10) trial counsel was

ineffective; (11) and cumulative effect of trial errors denied Burnside a fair
trial. Following supplemental briefing, the district court denied Mr. Burnside's
habeas corpus petition and declined to issue a certificate of appealability. See
(District Court's Opinion pg. 24 Appendix B).

Mr. Burnside timely filed a Notice of Appeal in the district court. On April
29, 2020, the Sixth Circuit denied Mr. Burnside's request for a certificate of
appealability. See (Sixth Circuit Court's Order pg. 3 Appendix A).
Mr. Burnside asserts that he is entitled to proceed on appeal to the United
States Court of Appeals for the Sixth Circuit with respect to ground one and the
supplemental pleading to his habeas petition, and he petitions this Court for
permission to do so.

8

REASONS FOR GRANTING THE WRIT
ARGUMENT I
THE UNITED STATES DISTRICT COURT FOR THE EASTERN DISTRICT OF
MICHIGAN AND THE UNITED STATES COURT OF APPEALS FOR THE
SIXTH CIRCUIT ERRONEOUSLY DENIED MR. BURNSIDE'S REQUEST FOR
A CERTIFICATE OF APPEALABILITY IN THIS HABEAS CORPUS CASE
WHERE OURISTS OF REASON COULD CLEARLY DEBATE WHETHER MR.
BURNSIDE'S DUE PROCESS RIGHTS WERE VIOLATED AND HE IS
ENTITLED TO A NEW TRIAL BASED ON NEWLY DISCOVERED EVIDENCE,
WHERE THE PROSECUTOR KNOWINGLY USED PER3URED TESTIMONY FROM

Leah watson, whose testimony was based on threats and
INTIMIDATION; AND THAT BUDGE FARAH'S FACTUAL FINDINGS ARE
NOT ENTITLED TO A PRESUMPTION OF CORRECTNESS.

Mr. Burnside raised eleven grounds for relief in his petition for writ of
habeas corpus in the district court. Mr. Burnside has made a substantial showing
of the denial of a constitutional right, as required by 2a U.S.C. § 2253 (c)(2),
with respect to ground one and the supplemental pleading to the habeas petition,
which alleges that Mr. Burnside's due process rights wera violated and he is
entitled to a new trial based on newly discovered evidence, where the prosecutor
knowingly used perjured testimony from Leah Watson, whose testimony was based on
threats and intimidation;

and that Budge Farah's factual findings are not

entitled to a presumption of correctness.
Prior to the affective date of the Anti-terrorism and Effective Death
Penalty Act of 1996 (AEDPA), Pub. L. No. 104-132, 110 Stat 1214, a certificate
of probable cause was required before an appeal from a federal district court
order could be taken in habeas cases. In order to obtain a certificate of
probable cause a petitioner was required to make a "substantial showing of the
denial of (a) federal right." Barefoot v. Estelle, 463 U.5. B80, 103 S.Ct. 3383,
77 L.Ed. 2d 1090 (19B3). Under Barefoot, all doubts are to be resolved in favor
of the petitioner in making this determination. Barefoot, supra, 463 U.S. at
893, n. 4. The probable cause standard in this context was intended to be a low
hurdle to surmount, and has been noted to require only "something more than the

9

absence of frivolity." Barefoot, supra, 463 U.5. at 893.
Obviously, Mr.. Burnside is not required to show that he should prevail on
the merits as in every case where a certificate of appealability is required the
district court has made a determination against the petitioner on the merits.
Under Barefoot, this Court has instructed that the certificate should be
issued when a petitioner shows that "the issues are debatable among jurists of
reason," or "a court could resolve the issues in a different manner," or "the
issues are adequate to deserve encouragement to proceed further," or the issues
are not "squarely foreclosed by statute, rule or authoritative court decision or
[not] lacking any factual basis in the record." Barefoot, supra, 463 U.S. at
894.
While Barefoot, supra, wes obviously issued when the required certificate
was one of probable cause, this Court, along with several circuits, has held
that there is no real change from the showing required for a certificate of
probable cause now that the required certificate is one of appealability under
the AEDPA. Slack v. McDaniel, 529 U.S. 473, 483-4B4, 120 S.Ct. 1595, 146 L.Ed.
2d 542 (2D00). See also Reyes v. Keane, 90 F.3d 676 (2nd Cir. 1996), In fact,
tha intent of Congress in this respect when passing the AEDPA was to codify the
Barefoot standard. Slack v. McDaniel, supra, 120 S.Ct. at 1603; Lennox v. Evans,
87 F.3d 431 (10th Cir. 1 996); Lyons v. Ohio Adult Parole Authority, 105 F.3d
1063

(6th Cir. 1997)(noting that

"the AEDPA merely codifies the Barefoot

standard" and that the only difference in the statutory language is an applicant
seeking a certificate of appealability must make "a substantial showing of the
denial of a constitutional right.")(emphasis added).
In Miller-El v. Cockrell, 537 U.S. 322, 336, 340, 123 S. Ct. 1029, 154 L.
Ed. 2d 931 (2003),this Court reaffirmed its prior holding in Slack when it
stressed that the AEDPA’s section 2253(c) "codified our standard, announced in

10

Barefoot. v.. Estelle [ ] , for determining what constitutes the requisite showino
[for obtaining leave to appeal a district court's denial of habeas corpus
relief3.

Under

the

controlling

standard,

a

petitioner must

sho[w]

that

reasonable jurists could debate whether (or, for that matter, agree that) the
petition should have been resolved in a different manner' or that the issues
presented were 'adequate to deserve encouragement to proceed further.

f U

Miller-

El, supra. This Court further stressed in Miller-El that the standard for a
certificate of appealability is "much less stringent" than the standard far
success on the merits, and that petitioners need not show that they are likely
to succeed on appeal or that any reasonable jurists would, after hearing the
appeal, rule in their favor. Id. Rather, the petitioner need only show that
"reasonable

jurists

would

find

the

district

court's

assessment

of

the

constitutional claims debatable or wrong. Id.
A review of the issue that Mr. Burnside raised in ground one and the
supplemental pleading of the habeas petition confirms the conclusion that this
particular issue is substantial.

Petitioner argued in ground one and the

supplemental pleading to the petition for writ of habeas corpus that Mr.
Burnside's due process rights were violated and he is entitled to a new trial
based on newly discovered evidence, where the prosecutor knowingly used perjured
testimony

from

L’aah

Watson,

whose

testimony

was

based

on

threats

and

intimidation; and that Budge Farah's factual findings are not entitled to a
presumption of correctness.
A state denies a criminal defendant's due process when it knowingly uses
perjured testimony at trial or allows untrue testimony to go uncorrected. Gigllo
■1r.

States, 405 U.S. 150, 153-54 (1972);Napue y. Illinois. 360 U.S. 264,

269-70 (1959). And when a witness perjures himself because of threats from
police officers, the defendant suffers "a deprivation of rights guaranteed by

11

the Federal Constitution." Five v. Kansas, 317 U.S. 213, 214-16 (1942). To
succeed in showing a due process violation from the use of alleged perjured
testimony, a defendant has the burden of establishing that (1) the witness in
question actually gave false testimony, (2) the falsity was material in that
there was a reasonable likelihood that it affected the judgment of the jury, and
(3) the prosecution used the testimony in question knowing that it was false.
Gigllo v. United States, 4D5 U.S. at 153-54.
In the instant case, Mr. Burnside submitted the sworn affidavit of Leah
Watson

(5-13-14 Appendix S), who was a primary government witness in Mr.

Burnside's trial. In the affidavit, Watson recants her trial testimony, stating
that she testified falsely when she implicated Burnside as being involved in the
crime. She explains that she made these false statements because the police
officers threatened to send her to prison for this crime, and that she was
scared of the police officers. She also explains that Burnside did not shoot at
her in 2005. And she states that upon reading the telephone transcripts, she saw
a lot of errors. And that she was not given the opportunity to confirm if the
conversations presented to her ware indeed Burnside and herself. Nonetheless,
Budge

Farah

denied Mr.

Burnside's

perjured testimony

claim implying that

Watson's affidavit was not credible and "there was nothing about which the
People were aware that suggests they presented perjured testimony. • • " See (Budge
Farah's decision pg. 1-2 Appendix E). Budge Farah's decision was unreasonable
(as shown below) both legally and factually. 28 U.S.C. § 2254 (d)(1)(2).

A. THE PROSECUTOR KNOWINGLY USED PERBURED TESTIMONY
This Court in Mooney v, Holohan applied the prohibition against using false
testimony to"prosecuting officers" and the "State" generally; Mooney applies

12

to the actions of law enforcement. See Mooney, 294 U.S. at 112-13 (1935), Leah
Watson's affidavit shows that police officers knew that she "originally stated
to them that the man that committed this crime was a man" she "was engaged in a
sexual relationship with, despite being involved in a relationship with Avern
Burnside at, that time..." The name she know him by is Ty, and the police
officers still used her perjured testimony in violation of Mr. Burnside's due
process rights. See (Leah Watson's affidavit 5-13-14 Appendix 3). Prohibitions
against providing

false

testimony

apply to law enforcement officers;

Mr.

Burnside needed not prove that the particular prosecuting attorney at trial knew
that Leah Watson's testimony was perjured. The Third Circuit has made clear that
when law enforcement officers procure false testimony and present it at trial,
the state is liable far the resulting Mooney violation even if the prosecuting
officers do not know the testimony is perjured. Curran v. Delaware, 259 F.2d
707,

712-13 (3rd Cir. 1959); Ltmone v. Condon. 372 F.3d 39, 47 (1st Cir.

1997)(holding that "tilt strains credulity to suggest that FBI agents and police
officers, duly sworn to uphold the law, do not fall within the compass of
[Mooney/Napue]

proscrptions").

Therefore,

reasonable

jurists

could

debate

whether police officers knew that Leah Watson's trial testimony was false.

B. THE TESTIMONY WAS PERJURED
Mr.

Burnside's

perjured

testimony

and

witness

intimidation

claim

are

premised on Leah Watson's sworn affidavit, in which Watson states that she was
taken in front of Judge Farah on a $50,000 bond hearing, see also (Patiton to
hold Watson to bail 1-20-11 Appendix R), and she knew then there was nothing she

13

could do but to get on the stand and just say what they wanted her to, and she
had no choice but to say that it was Burnside who committed the crime, as a
result of being intimidated by the prosecutor and police officers. Watson also
states that she testified falsely when she implicated Burnside as being involved
in the crime. And she explains that she made these false statements because the
police threatened to send her to prison for this crime, and that she was scared
of the police. See also (Leah Watson’s Affidavit of case witness Appendix 0).
However, for a conviction based on false testimony to offend due process, (as
proven here), there must be ’’the presence of impermissible state involvement in
the untruthful testimony.” Burks v. Eoelsr. 512 F.2d 221, 225 (6th Cir. 1975);
P.y.lf V« .Kansas, 317 U.S. 213, 215-16 (1942). Watson's statements, indicate that
the prosecutor and the police threatened her into implicating Mr. Burnside.
■'{Dleliberate deception of a court and jurors by the presentation of known false
evidence is incompatible with ’rudimentary demands of justice." Giglio y. United
States, 405 U.S. 150, 153 (1972) (quoting Mooney v. Holohan, 294 U.S. 103, 112
(1935). Therefore, reasonable jurists could debate whether Leah Watson’s trial
testimony was false because it was based on threats and intimidation.
Additionally, Leah Watson's affidavit was central to the prosecution case.
The

information

that

Watson

claimed

in

her

affidavit

that

she

was

■pressured by police officers to testify or risk going to prison would ao
directly

to

her believability.

Mr.

Burnside's

trial

counsel

attempted to

undermine Watson’s credibility by showing that, in the trial, Watson claimed and
denied that Ty shot at Ledesma's case.

See (TT, 2-23-12 pg. 66-73; 52-53

Appendix N). Leah Watson's affidavit would have provided the jury with an
alternate

explanation

for

her

inconsistent

testimony—namely

that

it

was

perjured and police officers intimidated her into making the statements. See,
e.g •

9

U.S. v. Perdomo, 929 F.2d 967, 971-72 (3d Cir. 1991)(undisclosed evidence

14

srta bns .of asd fosfneu) ysdf fBdtu yse taut bns tansfe arff do tag of fud ob bXuoa
B SB

,smlaa sdf bofflmmoa oriiii sbi©niu8 sew fi ferif ye© of fud Boiodo an bed

obIs

naafsU .enaoitto eoiXoq tana aofuasBoaq ©rtf yd befebimifnl gnlsd to fXuesa

bsvlevnl gnied ee ©bisnauS bsfsaiiqmi sde nsriu yXselst bBltifesf sd© ferif ©si's#©
sdf ©sueasd efn©ffi©#sfe ©ale5!- essrif ebsm sde fsrtf snislqxe sde bnA .©miaa sdf fit
bsasae sew sde fad* bns .amino e~irff not noeiaq of asd bns© of banafesarif solloq
«(p xibnsqqfl eesnfiia ©eea to fiveblttA e' noefsW rissj) oals s©8 .soiXoa ©df to
es) .aesooaq aub bnstto of ynomlfBBf seXet no beesd noifaivnaa e ant .asvswoH
fit fnsfflsvXovnl sfBfe sldlseimisqmi to eonsesiq ©df*' ©d fsum ©nerif ,(©nsri nsvoiq
•(5^sr , alD rita) ess tfSS bS.t Sfe .n©lsp3 ,v ©>lau8 ".ynomifeaf lutrifuntnu sdf
ferif efssibnl .efnsmafBfe ©'noefsttf . (S4Sf) Bt-SfS «£fS . S.U VfiS ,ssens» .v ©Xy^
.ebienauB .aM gnifBoiXqmi ofnl fad bsnsfssarif ©ailaq ©rif bne aofuaseoaq sdf
aelst nuion>l to roifefnsasiq erff yd eaoaut bns fauna

b

to noifqoasb ©f BaadilatO J'!

bsfinli >v ollpia ".©olfeut to ebosmsb yaBfnamibua* ritlw ©XdltBqmoani si sanabiv©
srr «£or ,2.U MS .nerioXoH .v yenooM gnifoup)(SMf) Ed t .OSf .S.U eOA ,eef sfS.
Xeiaf s'naefett! rissj nsrifsriw sfsdsb bXuoo efslant eidsnoeesn .©aotsasriT .(SESr)
.noifebimlfnl bns efsaarif no bsesd

bbui

ft

bbubobd

seXet esu ynomifeef

«sesa noifuoBeoiq ©df of Xsafnea eeui fivsbitte a'noefsW riBBj .yXXsnoifibbA
sew

arie

fsrif

fivsbitts

aari

ni

bamiaXa

noafslil

ferif

noifsffliotni

©HT

OB bXuou noeiaq of gniog >!©ia no ytifeaf of eaaaltto saiXoq yd baauBeeaqueeeaq
of befqmsffe

Xsenuoa

Xsiif

B'ebienouO

.nM

.yfiXldevalXad narf of

yXfasiib

bns bsmlBla noefeU .lelof sdf nl ,fsdf gniwode yd yfiiidibsia e’nosfeW ©nimisbnu

cs-se ;£^-aa .gq SNES-S ,TT) asE .sbbo e'sfneabej fe fods yT fsdf bsinsb
ne rifiu yaut ©df bsblvQfq Bvsri bXuou fivsbitts s’noefsli) rissU
bbu!

ft

ferif

yXsmen—ynomifeef

fnsfeisnoani

asri

act

.(W xibnsqqA

noifenslqx©

sfenasfXs

, ©sS .sfnsmsfBfB ©rif gni>lBm ofni a©d befsbimifni saaaitto eailoq bns bsautaaq

Bonsbiv© beBoXaaibnu)(fSST .aiP bE) SV-fVe «Vae bS.l 5S5 .omoba©9 ,v .S.U ,.g.s

» f

would have presented a new and different ground for impeachment and was
material). Therefore, reasonable jurists could debate whether Leah Watson's
affidavit is believable.

C. THE TESTIMONY WAS MATERIAL!
This Court has applied the materiality standard articulated in Brady v.
Maryland, to claims that false testimony was knowingly presented at trial. The
terms

"reasonable

likelihood"

and

"reasonable

possibility"

are treated as

synonyms. See United States v. Bagley, 473 U.S. 667, 679-BO (19B5). To determine
its materiality, perjured testimony "must be evaluated in the context of the
entire record"

to

determine whether it creates

a

reasonable doubt about

defendant's guilt. United States v. Aqurs. 427 U.S. 97, 112 (1976). From the
testimony and evidence provided in Mr. Burnside1s trial Watson was the only
witness to implicate and identify Burnside. See (TT, 2-23-12 pg. 52-53; 77-79;
123

Appendix N).

Out she recanted that testimony as well,

See

(Watson's

affidavit explaining that the man that committed this crime name is Ty, and that
Burnside did not shoot at her in 2005.

She also states upon reading the

telephone transcripts, she saw a lot of errors. And that shs was not given the
opportunity to confirm if the conversations presented to her were

indeed

Burnside and herslef... pg. 1-2 Appendix S). The other witness Ledesma couldn't
identify Mr. Burnside as the perpetrator. See (TT, 2-23-12 pg. 21-22 Appendix
N). And there was no other physical evidence that tied Mr. Burnside to the
crime. So Leah Watson's perjured testimony is material and not harmless.
Furthermore,

perjured testimony reasonably likely to have affected the

verdict at trial when it bears on the credibility of the witness. In Giglio this
Court found that tha perjured testimony was material because "the Government's
case depended almost entirely on [the witness's] testimoy," and without it

15

"there could have been no indictment and no evidence to carry the case to the
jury." 405 U.S. at 154. The government's key witness's credibility was » an
important issue in the case." Id. at 155. Here, like in Giglio, Watson's
testimony was crucial at trial. If the jury had known Leah Watson lied, there
would have been nothing left of the case against Mr. Burnside. Watson's trial
testimony was critical to demonstrating that Mr. Burnside had shot at Ledesma's
car . See (TT, 2-23-12 pg. 52-53 Appendix N). Finally, if, Leah Watson's trial
testimony is not considered, then the only legitimate verdict would be an
acquittal. So there is more than a reasonable likelihood that Leah Watson's
perjued testimony affected the verdict at Mr. Burnside's trial. Therefore,
reasonable jurists could debate whether Leah Watson's perjured testimony is
material.

D. BUDGE FARAH'S FACTUAL! FINDINGS ARE NOT ENTITLED TO A
CORRECTNESS.

PRESUMPTION OF

The jury trial in this case began on February 22, 2012, before the Honorable
Hark Latchana, District Court Budge who was sitting in for Ooseph 0. Farah,
Circuit Court Budge. Therefore, Budge Farah's factual findings, in particular
its credibility finding of Leah Watson's affidavit, are not entitled to a
presumption of correctness. 2R U.S.C. § 2254(e)(1).
The fact that. Budge Farah who reviewed Leah Watson's affidavit relating to
the perjured testimony and witness intimidation claim was not the same state
judge who presided over Hr. Burnside's trial or sentencing. See (TT, 2-22-12;
TT, 2-23-12; TT, 2-24-12; and ST, 3-2B-12). Therefore, Budge Farah was not in an
optimal position to assess the credibility of Leah Watson's affidavit. Because
Budge Farah did not have the benefit of observing Leah Watson's testimony at
trial, nee (TT, 2-22-12; TT, 2-23-12; TT, 2-24-12). So Budge Farah cannot make
credibility

determination

of

Leah

Watson's

16

affidavit

based

on

erroneous

assumptions and speculation. see (Oudge Farah's Order 7-14-15 pg. 1-2 Appendix
E), and having not considered the demeanor of Leah Watson being heard at trial,
and without holding an evidentiary hearing to take live testimony from Leah
Watson.
This Court explained: "A federal court can disagree with a state court's
credibility determination and, when guided by AEDP4, conclude the decision was
unreasonable or that the factual premise was incorrect by clear and convincing
evidence." Miller-El v. Cockrell. 537 U.3. 322, 340 (2003). This Court also
explained that a state court's credibility and demeanor determination based
solely on the paper record ere not accorded a presumption of correctness, i.e • J
AEDPA deference. See Cabana v. Bullock, 474 U.S. 376, 388 n.5 (1386); McGhee v.
Yukins, 229 F.3rf 506, 51 3 (6th Cir. 2000)("the state court of appeals made its
determination based on a review of the record, rather than live testimony, so
there is no reason to suppose the state court was especially well situated to
observe the demeanor of witnesses and to make credibility determinations"),
judges simply cannot decide whether a witness was lying or telling the truth "on
the basis of a paper record." Cabana at 388 n. 5. "[0]ur Constitution leaves it
to the jury, not the judge, to evaluate the credibility of witnesses in deciding
a criminal defendant's guilt or innocence." Ramonez v. aerghuis, 430 F.3d 482,
490 (6th Cir. 2007).
Here,

Oudge

Farah's

credibility

determination,

implied

that

Watson's

recantation was incredible as a matter of law. See (Oudge Farah's Order pg. 1-2
Appendix E). That determination, was inappropriate and legal error because Oudge
Farah's credibility determination was based on a "paper record" of Watson's
prior testimony. See Mendiola v. Schominq. 224 F.3d 589, 597-93 & n. 4 (7th Cir.
2000)(Rover, 0 • f Dissenting)(trial judge's determination that a material witness
"recantation" was incredible as a matter of law, could not bs based an a "paper

17

record").
2019)(state

See

also,

court

Fernandez

unreasonably

v.

Capra,

determined

916

F.3d

facts

215,

in

229-30

rejecting

(2d

Cir.

claim

that

prosecution presented false testimony by eyewitness, who later "recanted his
identification"

and

testified

to

police

officer's

coercion

to

lie

about

identification: state court rejected witness's recantation, but "state court's
decision contains sound reasons to credit [witness's]

recantation, and no

plausible reason to discredit it."); Morton v. Spencer. 351 F.3d 1, 7 (1st Cir.
2003), cert, denied, 542 U.S. 933 (2004)("state court's finding that 'the
affidavits were necessarily incredible or merely cumulative' is an unreesonabla
determination of the facts in light of the evidence presented."). Therefore,
reasonable jurists could debate whether Judge Farah's credibility finding of
Leah Watson's affidavit, are not entitled to a presumption of correctness. 20
U.S.C. § 2254(e)(1).

When confronted with this issue on habeas review, the district court judge
i ound that Judge rarah's decision denying Mr. Rurnside's claim was not contrary
to or an unreasonable application of Darden. And afforded Judge Farah's factual
findings a presumption of correctness. Sea (District Court's Opinion pg. 5, 8
Appendiz I). In coming to this conclusion, the district court essentially
adopted Judge Farah's decision. See (Judge Farah's decision pg.1-2 Appendix E).
Consequently, the district court denied habeas relief on this claim.
The district court also declined to issue a certificate of appealability on
the

basis

that

reasonable

jurists

would

not

debate

the

disposition

of

Petitioner's claim, see (District Court's Opinion pg. 24 Appendix B), and the
Sixth Circuit Court of Appeals subsequently declined to issue a certificate of
appealability in relation to this claim for the same reason. See (Sixth Circuit
Court's Order pg. 3 Appendix A).
Mr. Burnside would strongly urge that the decision of the district court and

18

the Sixth Circuit Court of appeals in declining to issue a certificate of
appealability in relation to this particular habeas claim under the facts of
this case was such a departure from the accepted and usual course of judicial
proceedings as to call for this Court's supervisory power to intervene in the
matter

because

this

issue

is

clearly

and

unequivocally

debatable

among

reasonable jurists, a court could resolve this issue in a different manner, the
issue is not lacking any factual basis in the record, and ultimately, the issue
deserve encouragement to proceed further.
However, in determining that the state courts decision pertaining to the
perjured testimony claim were reasonably rejected, the district court noted
that, "Watson's testimony was inconsistent and she was a reluctant witness. But
"merely inconsistencies" in testimony do not establish a prosecutor's knowingly
use of perjured testimony. Coe v. Bell, 161 F.3d 320, 343 (6th Cir. 1993). At
trial,

Watson

identified

her

fear

of

Petitioner

as

the

reason

for

her

inconsistent testimony. Defense counsel adequately probed Watson's credibility
on

cross-examination.

The

jury

was

properly

left

to

evaluate

Watson's

credibility. Petitioner fails to show that Watson's trial testimony was false or
that the prosecutor was aware it was false • • • " See (District Court's Opinion pg.
8 Appendix B). Furthermore, a portion of the district court's opinion rejecting
Mr. Burnside's claim because "the last court to address the merits of this
claim, found Watson's affidavit unpersuasive. See 7/14/2015 Ord. at 2, ECF No.
11-30 at Pg. ID 1118. The state court noted Watson's testimony vacillated from
the out*’#’ and that her inconsistencies were well-known. Defense counsel crossexamined Watson about these inconsistencies and asked which of her multiple
"versions" of the truth she would testify to at trial. The state court held that
the prosecutor simply asked Watson to tell the truth and denied this claim." See
(District Court's Opinion pg. 7, Appendix B).

19

Mr. Burnside posits that reasonable jurists could debate whether the stete
courts, the district court and the Sixth Circuit Court of Appeals (based on a
paper record alone)-, unreasonably stood in the place of the jury by determining
that Leah Watson's affidavit was not credible because they did not find Leah
Watson's

affidavit in support of Mr,

Burnside's

perjured testimony claim

persuasive and their determination that Leah Watson's trial testimony was more
believable than Leah Watson's affidavit. Even if Budge Farah did not find Leah
Watson's affidavit persuasive, "[i]t is neither the proper role for a [state
court judge] to stand in the place of the jury, weighing competing evidence and
deciding that some evidence is more believable than others." See e.g., Barker v.
Viikins, 199 F.3d 967, 874-75 (6th Cir. 1 999); Williams v.-By«y>. 623" F .3d 1258,
1266 (9th Cir. 201D)(district court erred in "conclud[ing] on the basis of
written statements alone that Barnett and McKaney were inherently unbelievable
witnesses" because of "inconsistencies in their declarations"; assessment of
"veracity of the witnesses" required "in-court evidentiary hearings."); Smith v,
Mississippi Dep't of Corr.. 153 Fed. Appx. 328, 328-29, 2005 U.S. fipp. LEXIS
244B3, at 2-3 (5th,; Cir. Nov. 10, 2005 (per curiam) ("district court improperly
relied on conflicting affidavit testimony [on jury selection claims] alone to
resolve the constitutional issues.");

Lewis v. Oeffers. 497 U.S. 764,

801

(1990)(Blackman 0 * f dissenting)(finding of state supreme court not due deference
bacausB state court "did not see the witnesses and was forced to rely upon a
paper record.").
For all of the above reasons, reasonable jurists could find that the
district court's decision to deny habeas relief with respect to ground one and
the supplemental pleading to the habeas petition was debatable or wrong, and
that Leah Watson's trial testimony was false and police officers knew it was
false. Therefore, the district court or the Sixth Circuit Court of Appeals

20

should have issued a certificate of appelability.
The denial of a certificate of appealability would effectively preclude
appellate review of the perjured testimony claim; and that judge Farabi*s factual
findings are not entitled to a presumption of correctness in this esse, despite
the fact that this particular claim plainly deserves encouragement to proceed
further on appeal. The requirement of a certificate of appealability is designed
to bar frivolous appeals, not to preclude appellate review cf cases involving
substantial issues. See Moore’s Federal Practice (2d Ed), § 220.03. Nonetheless,
that is just what has happened here: a substantial issue is being passed upon
without the benefit of full appellate review. A fair review of the record in
this case clearly demonstrates that a certificate of appaalability should issue
with respect to this particular claim and that the decisions of the district
court and the Sixth Circuit Court of Appeals declining to issue the same were an
extraordinary

departure

from

the

accepted

and

usual

course

of

judicial

proceedings in these types of cases.
CONCLUSION
WHEREFORE, for the foregoing reasons, Petitioner respectfully asks this
Honorable Court to grant certiorari in this case and remand this matter to the
United States Court of Appeals for the Sixth Circuit for full appellate review
of the issue that was raised as ground one and the supplemental pleading in
Burnside’s petition for writ of habeas corpus.

Respectfully Submitted,

Dated

*

7-lC-lo

22^22Jlujzug&k.
Avern Lee Burnside # 3S4SS5
In Prcpria Persona
Carson City Correctional Facility
10274 Boyer Road
Carson City, Michigan 48811

21

